                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




  INADEQUATE INTERNAL CONTROLS PREVENT THE
    CORPORATION FROM MITIGATING SIGNIFICANT
   RISKS INHERENT IN THE FIXED AMOUNT GRANTS
                    PROGRAM

                     OIG REPORT 13-07




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                       (202) 606-9390




This report was issued to Corporation management on September 30, 2013.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and recommendations
no later than March 31, 2013 and complete its corrective actions by September
30, 2014. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                   September 30, 2013


TO:          Robert Velasco,
             Chief Operating Officer

FROM:        Stuart Axenfeld /s/
             Assistant Inspector General for Audit

SUBJECT:     Office of Inspector General (OIG) Report 13-07: Inadequate Internal
             Controls Prevent the Corporation from Mitigating Significant Risks
             Inherent in the Fixed Amount Grants Program

Attached is the final report on the OIG’s Inadequate Internal Controls Prevent the
Corporation from Mitigating Significant Risks Inherent in the Fixed Amount Grants
Program. This evaluation was performed by OIG staff, with contractor assistance, in
accordance with the Quality Standards for Inspection and Evaluation.

Under the Corporation’s audit resolution policy, a final management decision on the
findings in this report is due by March 31, 2014. Notice of final action is due by
September 30, 2014.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov.


Attachment

cc: Margaret Rosenberry, Director, Office of Grants Management
    Rocco Gaudio, Deputy CFO for Grant and Field Financial Management Center
    Bill Basl, Director of AmeriCorps
    Doug Hilton, Director of Office of Accountability and Oversight




                 1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                                                  TABLE OF CONTENTS

Section                                                                                                               Page

Executive Summary ............................................................................................... 3

The Events that Gave Rise to this Evaluation ........................................................ 6

Findings...................................................................................................................12

Recommendations .................................................................................................21

Objectives, Scope, and Methodology ......................................................................23



Appendices

A: Corporation’s Response to Draft Report

B: Auditor’s Comments on the Corporation’s Response




                                                                2
EXECUTIVE SUMMARY

In 2009, Edward M. Kennedy Serve America Act for the first time authorized the
Corporation to award grants in fixed amounts, based on the hours worked by members
to be enrolled in national service positions. 42 U.S.C. § 12581(l). Unlike the
Corporation’s traditional grants, which reimburse a grantee for program costs, a fixed
grant awards the grantee a specified amount (not to exceed $13,000 for AmeriCorps,
$4,600 for Senior Corps) for each full-time national service member. The structure was
intended to minimize the administrative burdens on grantees and thus encourage
smaller organizations to participate in national service.

The fixed amount grant program has placed $240 million at financial risk, due to a lack
of meaningful safeguards against waste, fraud or mismanagement. Over the past four
years, the Corporation expanded this program without evaluating the risks inherent in its
structure or mitigating those risks with measures to prevent or promptly detect
excessive drawdowns of grant funds. A grantee is able to access the funds at will, and
to expend its entire award even if it falls far short of the volunteer enrollment levels on
which the award is based. The Corporation continues these grants from one year to the
next, essentially advancing funds, without reassessing the grantee’s creditworthiness or
compliance with financial requirements. Taxpayers have been fortunate to escape
losses, despite this vulnerability.  

This luck ran out, however, in the case of Digital Opportunities Trust (DOT), one of
AmeriCorps’ largest fixed amount grantees. DOT never maintained the contemplated
level of enrollment, but the Corporation continued to fund the grant for three years, while
the organization’s financial condition deteriorated. Each year, DOT spent all of the
funds, far more than it was entitled to spend based on its enrollment.

At the end of the grant’s second year, DOT was $687,427 in debt to the Corporation.
Instead of taking immediate collection steps, the Corporation deferred the problem and
optimistically extended funding. It hoped to recover the difference by continuing the
grant for a third year, while expecting DOT to: (1) reach a retention level of 280
members, which DOT had failed to achieve in years one and two; and (2) shoulder a
greater share of the program costs, sufficient to offset the prior excessive drawdowns.
Both of these expectations proved unrealistic.

Before the end of the third year, DOT expended the entire grant amount, owed the
Corporation more than $1 million, shut down the program and declared bankruptcy.
This left the community underserved and the taxpayers holding the bag. To avoid
further losses from other fixed amount grants, the Corporation should adopt effective,



                                             3
risk-based monitoring, internal controls and other measures. The Office of Inspector
General recommends that the Corporation:

   1. Reduce vulnerabilities in the Corporation’s fixed amount grant program by
      identifying the risk drivers (to include member enrollment/retention, drawdowns
      and non-CNCS resources contributed by grantees) and developing indicators by
      which to assess the associated risks. With the resulting information, the
      Corporation should:

         o Establish criteria for the use of fixed amount grants in the AmeriCorps and
           Senior Corps programs, considering, among other factors, the amount of
           the grant, financial resources, stability and capabilities of the grantee,
           grantee’s fundraising history, Corporation’s past experience with the
           grantee, level of uncertainty regarding grantee’s ability to meet
           programmatic and financial objectives and Congressional intent to enable
           small grantees to participate in national service programs;
         o Determine what information should be sought and considered in the
           application and selection process to support prudent award decisions,
           including thorough vetting of an applicant’s ability to retain members,
           independent verification of a grantee’s ability to devote additional
           resources to the program and submission of a program budget.
         o Develop terms and conditions to address these risks;
         o Target monitoring on key risk drivers/indicators (such as benchmarking an
           expected rate of member attrition for a successful grant, so that oversight
           can focus on programs with excessive attrition);
         o Modify or impose special conditions on underperforming or at-risk grants;
         o Ensure that continuation decisions include rigorous analysis of financial,
           as well as programmatic, performance and prospects.

   2. Control and monitor drawdowns through policies, procedures and processes that
      incorporate:

         o Caps on the portion of a grant that can be withdrawn quarterly from the
           Health and Human Services Payment Management System
         o Periodic, risk-based drawdown analyses, testing more frequently those
           grantees with excessive attrition and/or who are rated as moderate- or
           high-risk. Fresh results should be available for consideration when
           deciding whether to continue an existing grant or award a new grant to an
           existing grantee, as well as in developing monitoring priorities and annual
           and final grant closeouts;

                                          4
      o An array of corrective actions and interim safeguards for excessive
        drawdowns (including, for example, third-party confirmation of program
        funding commitments) that are based on risk, with resolution deadlines;
      o Timely recoupment of excessive drawdowns, with interest; Elevation of
        seriously troubled grants for management attention to ensure that
        corrective action plans are reasonable, realistic and sufficient, with follow-
        up reports.

3. Establish monitoring priorities, plans and procedures based on grantee risk
   assessments developed in accordance with the specific requirements of fixed
   amount grants, distinguishing between financial risk and programmatic risk.

4. Expand grant continuation decision-making with:

      o Information concerning available non-CNCS funding and changes to
        grantee’s financial stability or capabilities, as well as enrollment/retention,
        drawdowns and programmatic performance;
      o Stronger scrutiny for continuation awards that involve repayments of
        excessive drawdowns for prior periods, including: requiring approval by
        senior management where the debt is substantial in amount; written
        agreement with the grantee on a schedule for repayment; and more
        intense financial and programmatic monitoring to protect against further
        overpayments, ensure return of funds and promote achievement of
        program objectives.

5. Ensure effective communication between Program Officers and Grant Officers
   concerning enrollment and retention shortfalls, to permit grant adjustments,
   modifications or special conditions to mitigate developing risks and promote
   successful outcomes.

6. Formalize policies and procedures for the administration of fixed amount grants,
   communicate them to the affected parties, reassess them periodically and
   enforce them. With these safeguards, fixed amount grants may be a useful
   funding vehicle for the Corporation and its grantees.




                                        5
THE EVENTS THAT GAVE RISE TO THIS EVALUATION

The Corporation Initiates Fixed Amount Grants

In 2009, Edward M. Kennedy Serve America Act for the first time authorized the
Corporation to award grants in fixed amounts, based on the hours worked by members
to be enrolled in national service positions. 42 U.S.C. § 12581(l). This fixed amount
program allows an AmeriCorps grantee to receive a specified amount, not to exceed
$13,000, for each full-time member.1 Within Senior Corps, a grantee in the Senior
Companion Program receives up to $4,550 per volunteer, while a Foster Grandparents
grantee receives up to $4,600 per volunteer. The fixed amount grant structure was
intended to minimize the administrative burdens on grantees, thereby enabling smaller
organizations to receive AmeriCorps support.2 Because these grants are not based on
reimbursement of costs, grantees need not submit budgets or maintain expense records
and are not bound by Office of Management and Budget (OMB) cost principles. Fixed
amount grants are also exempt from matching (and related documentation)
requirements. The grantee is, however, required to pay a “significant” portion of the
total program costs with non-CNCS funds. Neither the statute nor any guidance from
the Corporation establishes how much outside funding is considered “significant.”

During the period 2010-2012, the Corporation awarded 118 such grants, totaling
$179,306,744. AmeriCorps’ 64 fixed amount grants totaled $158,735,133, ranging from
$107,727 to $30,672.094 in amount. The remaining 54 grants were awarded by Senior
Corps, beginning in 2011. They are split between the Foster Grandparents and Senior
Companion Programs (FGP and SCP, respectively) and range in amount from $45,500
to $1,138,500. In June 2013, during the pendency of this evaluation, AmeriCorps
awarded another 68 fixed amount grants totaling $65,417,327.

Fixed amount grants are awarded for a term of one year, with the potential for two one-
year “continuations,” resulting in a three-year grant cycle. Each continuation application
must describe any changes in the program scope (e.g., expansion to new sites), plans
to improve enrollment, retention or other compliance areas, increases in the cost per
full-time member, as well as any performance measure changes.
                                                            
1
  Full-time service in AmeriCorps requires 1700 hours of service, known as a Member Service Year
(MSY).
2
  See H.R. Rep. No. 111-37, at 96 (2009) (“Fixed amount grants allow smaller organizations to participate
in national service programs by easing the administrative burden and allowing for more efficient, cost-
effective program operation.”) (Majority report); see also id. at 301 (“This reauthorization will also help
smaller entities participate in national service programs by removing needless bureaucracy and red tape.
By allowing fixed grant awards, participants will still meet rigorous program requirements but the
administrative burden of detailed recordkeeping that has prevented smaller organizations from
participating in the past will be eliminated.”) (Minority report).
                                                               6
The application does not, however, require updated information about the grantee’s
financial resources or the non-CNCS funds that it intends to devote to the program. The
Corporation has the authority to maintain, increase or decrease the level of funding,
depending on the availability of funds and the grantee’s performance and demonstrated
capacity to manage the grant.

The Corporation has not exercised its authority under the Serve America Act to adopt
risk-specific terms and conditions for fixed amount grants. 42 U.S.C. § 12581(l)(3)(B).
As a result, the Corporation has awarded more than $240 million in grants without:

             Analyzing the risks specific to fixed amount awards,
             Developing measures (internal controls) to mitigate those risks and/or limit the
              Corporation's exposure,
             Establishing eligibility criteria for fixed amount awards, or
             Issuing policies, rules or regulations to address any of the above.

In the four years since the Serve America Act, the Corporation did not evaluate the
vulnerabilities of fixed amount grants, nor did it tailor its monitoring protocols or develop
meaningful internal controls. Corporation documents from 2010 and 2011 refer to two
“pilot programs,” but we found no evidence that the Corporation performed any
evaluation before expanding the use of this vehicle. Concurrent with this OIG review,
the Corporation’s research division conducted an evaluation that recommended
continuing fixed amount grants, with additional risk control measures.3

Until this OIG evaluation, the only written guidance for these grants consisted of brief
references in grant competition announcements (Notices of Funding Opportunity
(NOFOs), Application instructions and AmeriCorps Grant Provisions), elaborated in an
AmeriCorps document entitled “Frequently Asked Questions: Fixed-Amount Grants”
(FAQs), (with versions from October 6, 2010, October 1, 2012, and April 25, 2013),
directed at potential grant applicants.4 According to these FAQs, a fixed amount
grantee may draw all of the grant funds only if all of the expected members enroll and
complete their terms of service. Grantees may draw 20 percent of the funds
immediately to cover the initial costs of recruiting, selecting and training members, with
the balance to be drawn thereafter. The FAQs admonished that grantees “should make
sure that they do not draw funds in excess of member hours served.”



                                                            
3
  AmeriCorps State and National Fixed Amount Grants Reduce Reporting Burden with Limited Negative
Consequences, August 8, 2013 (cited as “Corporation’s Research Report”).
4
  Senior Corps issued similar, though not identical, FAQs for its fixed grant program, with versions dated
September 1, 2010 and September 27, 2010).
                                                               7
In April 2013, after discovering that a grantee had in fact drawn funds far in excess of
member service hours, the Corporation revised the FAQs to lend this point greater
emphasis. After drawing funds for the initial costs, grantees:

      must make sure that they do not draw funds in excess of member hours
      served for members who do not complete a term of service and only the
      full fixed amount authorized for those that complete a term of service.
      Grantees must ensure that they do not draw down more funds from the
      Payment Management System than they are entitled to based on member
      enrollments and the completion of terms of service. (AmeriCorps’
      Frequently Asked Questions: Fixed-amount Grants As of 4/25/2013).

At the same time, the Corporation’s Offices of Grants Management (OGM) and
Accountability and Oversight (OAO) established a manual procedure to compare
drawdowns to enrollment for each fixed amount grant, annually and at grant close-out.
Grant Officers calculate how much of its award a grantee was entitled to access, based
on the number of members who have completed terms of service, plus the hours served
by current members and those who left without serving their full terms. Comparing this
total to the amounts actually disbursed from the grant, OGM can determine whether the
grantee has overdrawn its enrollment-based entitlement. A grantee that has overdrawn
its entitlement by less than ten percent will be instructed by OGM to limit its drawdowns
consistent with enrollment. If the excessive drawdown represents 10-20 percent of the
grantee’s entitlement, a grant officer inquires as to the reasons and obtains information
about revenue flows, to determine whether the grantee has sufficient non-CNCS
resources to support the program. A “red flag” is placed on the electronic file, and the
program officer is notified. If the excessive drawdown is more than 20 percent of the
grantee’s entitlement and the grantee cannot provide adequate assurances about its
resources, a “manual hold” is placed on the grant; this means that further drawdowns
require advance authorization by the Corporation.

No other safeguards prevent a dishonest or underperforming grantee from withdrawing
the full amount of the grant, at any time. Like many Federal agencies, the Corporation
disburses grant funds through the Health and Human Services Payment Management
System, which allows a grantee to withdraw (draw down) grant funds by online request.
The funds are electronically deposited into the grantee’s bank account on the next
business day. While certain other Federal grant-making agencies limit the amounts that
can be drawn during a particular period, the Corporation does not do so, nor does it
routinely approve drawdowns in advance or review them contemporaneously.




                                            8
$1 Million Loss Illustrates Flaws in Program Design

In March 2013, the Corporation advised OIG that it was suspending an AmeriCorps
fixed amount grant to Digital Opportunities Trust (DOT), with the grantee’s consent.
DOT had received $10,402,707 for Program Years5 2010-2012, before notifying the
Corporation that it could not raise the necessary non-CNCS funds to continue the
program’s operation. Moreover, DOT had fallen short of its anticipated member
enrollment and retention and had drawn more from the grant than its total member
service hours warranted. The Corporation subsequently terminated the grant, and its
May 22, 2013 collection letter sought repayment of excessive drawdowns totaling
$1,040,003.6 In response, DOT in June 2013 filed for liquidation in bankruptcy. As a
result, it is doubtful that the Corporation will recover any substantial portion of the $1
million overpayment.

The grant was then in its third year and was one of the Corporation’s five largest fixed
amount grants. It was also one of the earliest. It began in FY 2010, when the
Corporation awarded DOT the sum of $3,640,000, $13,000 for each full-time member
working to expand its TeachUp program, a technology empowerment program for
teachers in two regions burdened by extreme poverty and exceptionally low education
levels; DOT planned to enroll 280 members.7

From the beginning, DOT was unable to retain members, many of whom quickly left to
accept full-time employment as teachers. DOT ended its first year with an attrition rate
of 35 percent, most of which occurred early in the year. Similar shortfalls occurred in
subsequent years, with slight improvements to 75 percent retention in the second year
and 80 percent in the third year, when the grant was terminated.

                                                               8
Through its My AmeriCorps Portal , the Corporation received timely information
concerning this member attrition but did not act on it. Although the Program Officer
spoke monthly with DOT, she reports that she did not learn of the retention problems for
more than a year, until AmeriCorps began its annual program-wide risk assessment in

                                                            
5
  DOT’s Program Year ran from July 1 to June 30th.
6
  At the same time, the Corporation revised the FAQs and developed the drawdown review procedure.
7
  DOT was not well known to the Corporation when it made this sizeable grant. As the subrecipient of a
State Commission, the organization had only one year of past performance managing a grant of
$248,528. The Corporation essentially awarded 14.6 times the value of its previous grants without a
detailed assessment of its financial viability and without DOT’s completion of its first Corporation grant.
8
  The My AmeriCorps Portal communicates data for the National Service Trust and grantees/sub-
grantees through grantees’ financial status reports. It also allows AmeriCorps members and Corporation
personnel to record and view AmeriCorps members’ personal information and education award status, as
well as program information.

                                                                   9
July 2011. Throughout the second and third years of the grant, DOT’s written progress
reports repeatedly acknowledged difficulty meeting its retention goals. The Program
Officer recognized the seriousness of the problem and required specific corrective
actions, with limited success. She did not, however, inquire into whether DOT was
drawing more from the grant than its enrollment permitted. Nor did she discuss the
retention shortfalls directly with the assigned Grant Officer, who did not read electronic
copies of the related correspondence because of the volume of her work. OGM stated
that Grant Officers do not typically review such correspondence unless specifically
requested to do so by a Program Officer. As a result, the Grant Officer remained
unaware of the nature and magnitude of DOT’s underperformance and the related risks.

The Corporation did not consider DOT’s retention problems when, in February 2011, it
decided to continue the grant for a second year at the original level of funding. By that
time, DOT’s attrition had reached 27 percent, as the Corporation’s records then
showed. Only towards the end of the second year did the Corporation take steps to
determine whether DOT’s drawdowns exceeded its enrollment-based entitlement, and,
even then, it asked DOT for an estimate, rather than performing its own analysis. In
April 2012, DOT, which had expended all of the grant funds for its second year,
estimated that it would overdraw the first two years of the grant by a total of $517,293.
In fact, DOT had overdrawn its first year’s entitlement by $422,825, and would ultimately
overdraw the second year by $264,602. By the beginning of year three, DOT was
$687,427 in debt to the Corporation.

The debt grew further because, instead of taking immediate collection steps, the
Corporation deferred the problem and hoped for the best. Specifically, it intended to
recover the difference by continuing the grant for a third year, while expecting DOT to:
(1) enroll and retain 280 members, which DOT had failed to achieve in years one and
two; and (2) shoulder a greater share of the program costs, sufficient to offset the prior
excessive drawdowns. Both of these expectations proved unrealistic. DOT’s attrition
remained high. Without adjusting the enrollment expectations, the Corporation had
reduced the third year grant from $3.6 million to $3.1 million; DOT expended the entire
amount, but its enrollment justified less than $2.8 million. Moreover, DOT failed to
secure the necessary outside funding, and it advised the Corporation in March 2013
that it was forced to shut down the program before the end of the grant year. Not until
then did the Corporation realize that DOT had, once again, withdrawn excessive funds.
By that time, the debt had grown to $1,040,003.




                                            10
                                            Amount Drawn
                      Entitlement           Down (per the
                      Based on DOT’s        HHS Payment          Overdrawn
                      Member                Management           Amount Owed by
  Program Year        Retention             System)              DOT to CNCS

  Year 1              $3,217,175            $3,640,000           $422,825

  Year 2              $3,375,398            $3,640,000           $264,602

  Year 3              $2,770,131            $3,122,707           $352,576

  Total               $9,362,704            $10,402,707          $1,040,003


Throughout the grant period, the Corporation’s monitoring planning underrated the
seriousness of DOT’s retention problems and did not consider whether it had sufficient
non-CNCS funds to continue the program. When the Corporation suspended the grant
and DOT’s indebtedness to the agency bankrupted the company, the grantee was rated
as having only “medium” risk.

Excessive Drawdowns in Other Fixed Amount Grants

In light of the Corporation’s experience with DOT, OIG reviewed an additional nine
grants, focusing on those with higher drawdown rates. We found no losses, but two
grantees made excessive drawdowns during at least one year of their respective grants.
Habitat for Humanity International, Inc. withdrew $92,947 more than it was entitled to in
the second year of its $3,900,000 grant. Fortunately, the grantee had underdrawn its
entitlement in the first year and had sufficient non-CNCS funds to cover an increased
share of the program costs in the final year, offsetting the overpayments. The
Corporation did not seek interest for what was effectively an advance.

University of North Carolina at Chapel Hill overdrew its $336,000 grant by $9,657 in its
first year, offsetting $3,447 of that amount in the second year. The third year is now in
progress.




                                           11
FINDINGS

THE CORPORATION LACKS A COHERENT STRATEGY FOR MANAGING THE
RISKS INHERENT IN FIXED AMOUNT AWARDS AT EACH STAGE OF THE GRANT
CYCLE, HAS SUSTAINED A SIGNIFICANT LOSS AS A RESULT AND REMAINS
VULNERABLE TO FUTURE LOSSES.

The Corporation has extended more than $240 million of fixed amount grants without
appropriate internal controls to protect those funds against waste, fraud and
mismanagement. Only with the recent discovery of a $1 million loss did the Corporation
begin to develop procedures directed at monitoring the risks specific to fixed amount
grants. The new procedures are a step in the right direction, but more can and should
be done to prevent abuse.

To achieve its mission and safeguard the integrity of Federal programs, operations and
assets, an agency must understand its financial and programmatic risks and align its
business processes to mitigate them. According to Office of Management and Budget
Circular A-123 (OMB A-123), an agency head must take systematic and proactive
measures to: (1) identify and assess the most significant risks that could prevent a
particular program from meeting its objectives; (2) incorporate into its key processes
measures designed to limit those risks; (3) communicate those requirements to affected
staff and other stakeholders; (4) monitor and evaluate the effectiveness of those control
activities; and (5) correct deficiencies. Management must maintain an efficient balance
between the magnitude of the risk and the burdens associated with mitigating it.

In haste to simplify grant administration and minimize the burdens on grantees, the
Corporation bypassed these critical risk management steps in 2010 when it rolled out
this new funding vehicle. As result, the Corporation simply relies on its grantees to act
responsibly, and it therefore remains vulnerable to fraud and mismanagement. Even
under its new monitoring procedures, the Corporation might not learn of excessive
drawdowns until long after the fact.

OIG supports the Corporation’s effort to reduce the administrative burdens on grantees
and the Corporation itself. Further, we are mindful of the Corporation’s conclusion that
AmeriCorps’ fixed amount grants cost on average $1,798 less per member than cost
reimbursement grants.9 Fixed amount grants thus present an opportunity to advance
the twin goals of economy and efficient administration, provided that they are used
purposefully, with due regard for the risks that they pose.

We believe that the necessary protection can be achieved with modest, albeit critical,
safeguards, with minimal impact on grantees. Until appropriate safeguards are in
                                                            
9
    Corporation’s Research Report at 14.
                                                               12
place, we do not believe that the Corporation should initiate new fixed amount
grants or expand the program.

       I.   Without a comprehensive risk assessment of the fixed amount grant
            program structure, the Corporation cannot design and implement
            effective internal controls.

The Corporation never conducted a formal assessment of the risks inherent in fixed
amount grants. Development of effective internal controls depends on a clear and
comprehensive understanding of the specific risks that threaten the programmatic and
fiscal performance of these grants. The lack of a formal risk assessment increases the
likelihood that the Corporation will overlook significant risks. In particular, risk
assessment should influence determinations about:

       The kinds of grants and grantees that should be eligible for fixed amount funding;
       The information to be sought in the application process in order to make prudent
        award decisions;
       Differences between the terms and conditions for fixed amount awards and those
        applicable to cost reimbursement grants;
       Targeted monitoring;
       Continuation of grants, modification of terms and renewal or termination.

See GAO Internal Control Standards (GAO/AIMD-00-21.3.1 (11/99) (management
should comprehensively identify risks, including those posed by significant interactions
between the agency and other parties, as well as internal factors at both the agency and
activity level).

Internal documents from 2010-2011 suggest that the Corporation may have intended to
defer its formal assessment pending completion of a limited pilot project. In the interim,
however, the fixed amount grant portfolio grew without a disciplined assessment of risk.
A recent evaluation by the Corporation’s research department conducted concurrent
with our evaluation concluded that fixed amount grants are cost-effective but
recommended better risk management with respect to grantees’ fundraising ability.
This evaluation is informative, but it is not, and does not purport to be, a disciplined risk
assessment and mitigation plan.

As DOT illustrates, three interrelated risks are clearly significant: (1) member shortfalls,
either by under-enrollment or under-retention; (2) excessive drawdowns, i.e.,
drawdowns of grant funds disproportionate to member enrollment; and (3) lack of
additional funds sufficient to sustain program costs.




                                             13
These factors threaten programmatic success, as well as financial management.
Although other factors may emerge from formal analysis, these three should be
important components in any risk management strategy for fixed amount grants.10

While these same risk factors may also apply to the more prevalent cost reimbursement
grants, they assume greater weight for fixed amount grants. Eliminating the burdens
that constrain cost reimbursement grants—cost principles, documentation requirements
and submission of budgets and Federal Financial Reports—has also eliminated internal
controls and monitoring scrutiny intended to protect the Corporation and the
taxpayers.11

          II.         The Corporation’s preventive and detection controls for grant
                      administration must be improved to reasonably safeguard fixed grant
                      funds against loss.

The Corporation does not have a process in place to prevent grantees from drawing
excessive grant funds during the course of the grant. The lack of preventive controls in
the drawdown process invites mischief, and the newly instituted detection controls,
though helpful, should be strengthened.

Effectively, a grantee may draw from a fixed amount grant at will. The only limitation is
a requirement that the drawdowns be used for current expenses, something the
Corporation neither monitors nor enforces. Only the honor system prevents a grantee
from withdrawing the entire amount immediately and misappropriating it or using it for
an unauthorized purpose. Even with the new drawdown review, many months may
elapse before the Corporation discovers a defalcation, and recoupment may then be
impossible. The current state of affairs also permits mismanagement by a well-
intentioned grantee, which can quickly exhaust its Corporation funding on bona fide
expenses and then find itself with insufficient resources to pay for the rest of its
program. Or, as in the case of DOT, nothing prevents a grantee from drawing
substantially more grant funds than its enrollment warrants, leaving the burdens and
uncertainties of recovery to the Corporation and the taxpayers. In any of these
scenarios, in addition to the financial loss, the community is denied the services that the
Corporation intended to fund. We do not believe that this state of affairs meets
management’s responsibility to ensure that resources are used prudently and with
limited potential for waste.
                                                            
10
    As with DOT, a grantee short on members may overdraw the grant in order to pay immediate
expenses, leaving the Corporation no way to recoup the overpayments in the absence of non-CNCS
funds. Even if the grantee has met its membership goals and is therefore entitled to the full grant amount,
a shortfall in non-CNCS funding could require the program to shrink or even cease operations.
11
   See Corporation’s Research Report, at page 1 (performance and operational risks increase because, in
absence of budget oversight, grant officers do not know whether fixed amount grantees are raising
sufficient non-CNCS funds to support program operations).
                                                               14
The Corporation should minimize its exposure by implementing preventive controls that
cap the percentage of the grant that can be drawn quarterly. The HHS Payment
Management System (PMS) currently used by the Corporation for grant disbursements
can be programmed to automatically refuse drawdown requests that exceed a
predetermined threshold and notify the Corporation by email. The Corporation could
then inquire into the circumstances (including member retention and the prospects for
non-CNCS funding) and determine whether to approve the additional drawdown. If the
caps are set prudently, few requests for special approvals should be necessary. This
measure would limit the amount at risk while retaining considerable flexibility for
grantees. Automating the process would minimize the administrative burden and help
the Corporation to identify underperforming grants that probably warrant greater
attention. The Department of Labor and the Department of the State apply similar
preventive drawdown controls to their PMS-disbursed grants.12

An alternative approach to preventive controls is to require fixed amount grantees to
obtain a bond for some portion of the grant, as a guarantee of repayment in the event of
drawdowns to which the grantee is not ultimately entitled. OIG has previously
encouraged the Corporation to explore whether such bonds are available and/or cost-
effective.

Moreover, the Corporation should act promptly upon receiving information indicating
that a grantee will ultimately be entitled to keep substantially less than the entire grant
amount. It should, for example, adjust grants that recruit substantially fewer than the
expected number of members, particularly where enrollment is time-limited. Those
grantees cannot possibly qualify for 100% of the original grant amount, and allowing
them access to all of it is essentially a loan to an underperforming borrower. The same
principle applies where there has been substantial attrition and little prospect of
replacing the exited members. With its first-year retention rate at only 65 percent,
DOT’s membership shortfall was worth $707,124. That could have funded another
grant. Allowing grantees to enroll full-time members partway through the year may offer
a partial solution, but it also poses risks. High member turnover is itself a significant risk
indicator of serious deficiencies in an AmeriCorps program. Replacement of these
members with new individuals, while it may fulfill enrollment goals, should not be
allowed to mask these concerns.

In the case of DOT, the Corporation could have avoided the majority of the losses by
acting promptly on available information. By February 2011, when the Corporation
decided to fund the grant for a second year, Corporation records showed that DOT had
already experienced attrition of more than 27 percent. This inordinate loss of members
midway through the grant’s first year should have triggered serious doubts about
                                                            
12
     These agencies use drawdown caps for their cost reimbursement grants.
                                                               15
continuing the grant at the original funding level. Overlooking this information cost the
Corporation an opportunity to manage its risks by reducing or modifying the grant in the
second year.

Even later, as the Program Officer took some steps to address programmatic risks
stemming from the retention shortfalls, the related financial risks received little or no
attention. The Corporation’s plan to recoup two years of excessive drawdowns in the
third year rested on overly optimistic assumptions inconsistent with the grantee’s
history. Even then, the Corporation failed to monitor the drawdowns and did not notice
as DOT expended yet more Federal funds to which is was not entitled, and its financial
condition worsened. Instead of mitigating its losses, the Corporation’s actions
postponed the day of reckoning and increased the taxpayers’ exposure. From the end
of the second program year to April 2013, when the program was suspended, DOT’s
debt to the Corporation rose from $687,427 to more than $1 million.

Prudent decisions about whether and on what terms to continue an underperforming
fixed grant demand better use of available information and more thoughtful, disciplined
analysis. More rigorous decision-making at the continuation stage would have
minimized the DOT losses and put the funds to better use by other grantees.
Institutionalizing risk-based controls and decision criteria will help to avoid such losses
in the future. The new drawdown analysis procedure adopted by the Corporation in the
wake of the DOT mismanagement is a commendable step. Together with preventive
controls, this detection control can be refined to provide better protection at little
additional cost.

First, the drawdown analysis should be performed more frequently, based on risk, e.g.,
quarterly for grants that show a substantial member shortfall or for large grants in which
even a modest percentage shortfall could have significant financial impact. This would
permit the Corporation to intervene before losses mount, rather than to chase after stale
debts that have been allowed to grow. Fresh results should be available to inform key
decisions—whether to continue an existing grant, make new awards to existing
grantees, establish priorities for monitoring and close out each grant year—which take
place at various times during the year. Information regarding enrollment/retention and
drawdowns is already available to the Corporation, so no additional reporting by
grantees is required. The calculation is a simple one and should be automatic, with
anomalies easily flagged.

Second, the Corporation must act decisively to prevent further exposure whenever it
learns of excessive drawdowns that are significant in amount. The new procedure does
not require prior authorization for further drawdowns unless the grantee has overdrawn
its entitlement by more than 20 percent.


                                            16
The threshold remains the same whether the grant is for $80,000 or $3 million, a one-
size-fits-all approach that leaves the Corporation exposed to undue risk in the case of
large grants. With a grant in excess of $3.6 million, DOT could have overdrawn as
much as $720,000 before incurring mandatory draw restrictions. Moreover, a manual
hold offers no protection if the grantee has already exhausted the grant, as DOT did
each year. Further, the new drawdown procedure offers no alternative actions to be
considered and imposes neither deadlines nor interim limitations on draws pending the
grantee’s satisfactory response to inquiries. The undrawn portion of any grant thus
remains at risk while the Corporation engages the grantee in discussions. There is also
no requirement that risks above a certain level be brought to the attention of senior
management. Finally, the new procedure does not require the Corporation to take
prompt action to recover substantial excessive drawdowns.13

Grantees should be required to report quarterly on their total expenditures for the
program supported by the grant. Comparison of that figure to the drawdowns to date
will show whether the grantee is in fact devoting significant non-CNCS funds to the
program, as required by the Serve America Act. This requirement should not prove
burdensome, inasmuch as OMB requirements oblige grantees to maintain records of
expenditures in programs supported by Federal grants. See OMB Circular A-110,
Uniform Administrative Requirements for Grants and Other Agreements with Institutions
of Higher Education, Hospitals and Other Non-Profit Organizations, Subpart C- Post
Award Requirements, .21 Standards for Financial Management Systems.

Finally, the Corporation should seek to recover interest on the overpaid amounts. By
definition, excessive drawdowns represent advances of Federal funds, on which interest
should be charged in accordance with OMB Circular A-110, Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals and Other Non-Profit Organizations, Subpart C - Post Award Requirements,
.22 Payment (k), and 45 CFR § 2543.21 Standards for financial management system.

         III.         Risk-based eligibility criteria would reduce vulnerability.

The Corporation should determine whether only certain grants or grantees should be
eligible to receive fixed amount grants. We believe that fixed grants of substantial
amount should generally be reserved for grantees whom the Corporation can
confidently assess as posing little financial risk, given the limited financial monitoring to
which such grants are subject. The specific criteria, however, may differ from program
to program. Fixed amount grants may also be well suited for small awards even if they
bear moderate risks, because more intense financial monitoring is not cost-effective.
                                                            
13
   Additionally, OGM’s first drawdown analysis reports were not dated or signed by the preparer or
supervisor. Since enrollment and drawdowns change over time, it is necessary to know the date of the
calculation in order to determine the accuracy of the result.
                                                               17
Senior Corps limits its risks by extending fixed amount grants on an invitation-only basis
to experienced FGP and SCP grantees. To be offered admission, a grantee must first
complete a three-year grant cycle in which it meets targets for enrollment, programmatic
success and compliance. This positive track record suggests that renewal of the grant
is a low-risk proposition that can be managed with limited Corporation oversight. That
Senior Corps grants tend to be relatively modest in amount—averaging $380,956—
further minimizes the Corporation’s exposure.

AmeriCorps, by contrast, has not imposed strict entry requirements. Instead, it makes
case-by-case determinations about eligibility for a fixed award, considering a variety of
factors. Successful completion of a prior grant would contribute strongly to a low risk
rating, but is not essential. Thus, the Corporation awarded DOT more than $3.6 million
per year, more than 14 times the value of the $248,528 it had received the previous
year as a subrecipient of the Mississippi Commission for Volunteer Service, without
significant performance data. OIG believes that AmeriCorps would be well served to
adopt eligibility criteria aligned with the particular risks of fixed amount grants, such as
success in member enrollment and retention and demonstrated ability to attract
significant funding from other sources. These criteria might also be weighted depending
on the size of the grant. Large fixed amount grants should be reserved for grantees
with a long track record of success in the AmeriCorps program.

Whatever the entry criteria, prudent grant decisions depend upon obtaining the
information necessary to make accurate risk assessments. Application documents
must be tailored to the risks and require complete and responsive information. Three of
the ten grantees in our sample did not identify in their applications the source of the
non-CNCS funding they intended to use for the program. The Corporation nevertheless
extended grants totaling $948,043, taking on faith that these grantees would in fact
develop the necessary resources. Inability or unwillingness to specify in a grant
application the source from which the grantee will fund the balance of program costs
should provoke questions about the grantee’s ability to generate the necessary funds.

Best practices for grant management encourage Federal agencies to obtain
independent verification of a grantee’s financial capacity before awarding Federal funds;
forthcoming Federal grant management standards are likely to make this mandatory. In
the most recent AmeriCorps competition, the Corporation for the first time considered
an applicant’s financial capacity as an award criterion, and OIG commends this
progress. The information comes in large part from a report produced by GuideStar and
the Non-Profit Finance Fund, which includes, among other information, five years of
data regarding sources of revenue, available liquidity and assets. Prudent use of this
information may enable the Corporation to avoid making grants to applicants that have
historically lacked sufficient financial support.

                                             18
Updating financial risk information at the continuation stage would also protect against
unknowingly doubling down on increasingly risky grants. According to the Corporation’s
Office of Accountability and Oversight, a financial review of DOT for the second year of
the grant would have identified the organization as high financial risk. The Corporation
should identify the precise information needed for an accurate risk assessment in the
context of a fixed amount grant and revise its application, pre-award and continuation
procedures accordingly.

The Corporation should also consider requiring applicants for fixed amount grants to
submit a budget for the program. Doing so would require the grantee to think
realistically about the total costs of administering the program and quantify the non-
CNCS resources needed.14 Any responsible grantee should prepare such a budget for
internal purposes when it applies for a grant, so requiring its submission in the
application should not prove burdensome.15 Currently, however, the Corporation touts
the lack of a required budget submission as an “advantage” of fixed amount grants.
See Question and Answer 2, Frequently Asked Questions/Fixed Amount Grants As of
4/25/13. This deprives the Corporation of a tool that could help to assess the grantee’s
grasp of the financial ingredients of a successful program.

The Corporation’s recent internal evaluation notes that AmeriCorps fixed amount grants
tend to be significantly larger and the grantees more experienced than their cost
reimbursement counterparts.16 While these characteristics may reduce risk and cost
per full-time member, Congress authorized fixed amount grants for the specific purpose
of enabling small organizations to participate in national service programs. Consistent
with Congressional intent, the Corporation should define the class of small and less
experienced organizations for whom modest fixed amount grants would be appropriate.
The Corporation can tolerate a greater degree of uncertainty in connection with a new,
small grantee, provided that the grant amount is limited. The challenge is to provide
adequate safeguards without discouraging smaller grantees.               We believe that
reasonable drawdown limitations, coupled with regular reviews of enrollment/retention
to identify grantees that may be lagging, strike an appropriate balance of financial
protections, with no additional administrative requirements. The Corporation can then
focus its financial monitoring and assistance on the basis of overall risk.




                                                            
14
   The budget would complement information about funding sources contained in the grant application.
15
   We do not contemplate the Corporation monitoring the grantee’s performance against this budget or
approving significant changes, as it does for cost reimbursement grants.
16
   Fixed amount grants average $755,584, with 125 volunteer slots vs. $332,690 and 49 slots for cost
reimbursement grants. Half of the fixed amount grantees have ten or more years’ experience with the
Corporation vs. 30 percent for cost reimbursement grantees. Corporation’s Research Report at 7-8.
                                                               19
        IV.           The Corporation’s grant monitoring assessments understate the risks of
                      fixed amount grants.
The Corporation develops its annual monitoring priorities by assessing each grant
based on 17 generic risk indicators, which are rated according to the level of risk.
According to its recent analysis, fixed amount grants are slightly more risky than cost
reimbursement grants, scoring an average 12 points higher.17                 Because the
Corporation’s assessment methodology is ill-adapted to fixed amount grants, this
internal evaluation likely understates their risk. Three of the risk indicators are not
relevant to fixed amount grants and are always scored at zero, artificially depressing the
risk ratings of fixed amount grants relative to cost reimbursement grants.

The risk rating also does not consider the grantee’s ability to devote significant non-
CNCS resources to the program, which is critical to successful performance of a fixed
amount grant. For cost reimbursement grants, the Corporation treats a grantee’s ability
to meet the requirement for matching contributions as an important risk factor, but there
is no corresponding risk factor applicable to the non-CNCS funding required for fixed
amount grants. If a project’s success (as well as statutory compliance) may depend on
raising non-CNCS funds, a risk assessment that disregards that factor is seriously
flawed.

Finally, the Corporation does not weight the enrollment/retention indicator differently for
fixed amount grants than it does for cost reimbursement grants. We understand that
the Corporation’s existing technology may limit its flexibility to do so. However, these
risks may be more significant for fixed amount grants than for others, and weighting
them the same across the board may disguise the magnitude of the risks.

As a result, the Corporation may unknowingly assume high risks, fail to monitor them
closely and miss opportunities to minimize losses by early intervention. Customizing
and weighting the risk analysis specifically for fixed amount grants would provide a
more accurate calibration of risks and more efficient deployment of monitoring
resources.18

          V.          The Corporation should operationalize its risk control measures
                      through integrated policies and procedures.

Written policies express the priorities, directives and program objectives established by
senior management, including those for accountability and risk control. Those policies
may be embodied in regulations and are implemented by means of procedures.

                                                            
17
  Corporation’s Research Report at 15.
18
   After developing appropriate risk criteria for fixed amount grants, the Corporation will have to ensure
comparability to the risk ratings for cost reimbursement grants, in order to establish a single set of
priorities for monitoring.
                                                               20
The Corporation has adopted no policies specific to fixed amount grants, and its
procedures are limited to the recently drafted Fixed Amount Grant Drawdown Analysis
Process that calls for reconciliation of drawdowns and enrollment. Apart from this, the
limited guidance provided by the Corporation appears in FAQs, NOFOs, application
instructions and email documentation. Much of this is general in nature, and none of it
contains the safeguards necessary to protect fixed amount grant funds against
mismanagement and loss. The FAQs, which currently provide the most detailed
discussion of fixed amount grants for grantees, are merely guidance and are not
enforceable.

Upon completion of a comprehensive risk assessment, the Corporation should adopt
policies reflecting management’s priorities for fixed amount grants, including cost-
effective internal controls to mitigate risks.      Those policies should then be
operationalized through procedures to ensure compliance.

RECOMMENDATIONS

To address the findings identified in this report and reduce operational and financial risk,
OIG recommends that the Corporation:

   1. Reduce vulnerabilities in the Corporation’s fixed amount grant program by
      identifying the risk drivers (to include member enrollment/retention, drawdowns
      and non-CNCS resources) and developing indicators by which to assess the
      associated risks. With the resulting information, the Corporation should:

          a. Establish criteria for the use of fixed amount grants in the AmeriCorps and
             Senior Corps programs, considering, among other factors, the amount of
             the grant, financial resources, stability and capabilities of the grantee,
             grantee’s fundraising history, Corporation’s past experience with the
             grantee, level of uncertainty regarding grantee’s ability to meet
             programmatic and financial objectives and Congressional intent to enable
             small grantees to participate in national service programs;
          b. Determine what information should be sought and considered in the
             application and selection process to support prudent award decisions,
             including thorough vetting of applicant’s ability to retain members,
             independent verification of grantee’s ability to devote additional resources
             to program and submission of program budget.
          c. Develop terms and conditions to address these risks;
          d. Target monitoring on key risk drivers/indicators (such as benchmarking an
             expected rate of member attrition for a successful grant, so that oversight
             can focus on programs with excessive attrition);
          e. Modify or impose special conditions on underperforming or at-risk grants;

                                             21
      f. Ensure that continuation decisions include rigorous analysis of financial,
         as well as programmatic, performance and prospects.

2. Control and monitor drawdowns through policies, procedures and processes that
   incorporate:

      a. Caps on the portion of a grant that can be withdrawn quarterly from the
         HHS PMS;
      b. Periodic, risk-based drawdown analyses, testing more frequently those
         grantees with excessive attrition and/or who are rated as moderate- or
         high-risk, with fresh results considered in deciding whether to continue an
         existing grant or award a new grant to an existing grantee, as well as in
         developing monitoring priorities and annual and final grant closeouts;
      c. Requirements that each drawdown analysis report be dated, initialed by
         the preparer, and signed by a supervisor for verification purposes and as
         evidence that the review was conducted timely by the appropriate
         personnel, and approved by authorized personnel;
      d. An array of corrective actions and interim safeguards for excessive
         drawdowns (including, for example, third-party confirmation of program
         funding commitments) that are based on risk, with resolution deadlines;
         Timely recoupment of excessive drawdowns, with collection of applicable
         interest payments;
      e. Elevation of seriously troubled grants for management attention to ensure
         that corrective action plans are reasonable, realistic and sufficient, with
         follow-up reports.

3. Obtain quarterly information from grantees on total program expenditures and/or
   development of non-CNCS funding for program support.

4. Establish monitoring priorities, plans and procedures based on grantee risk
   assessments that address specific fixed amount grant requirements,
   distinguishing between financial risk and programmatic risk.

5. Expand grant continuation decision-making with:

      a. Information concerning available non-CNCS funding and changes to
         grantee’s financial stability or capabilities, as well as enrollment/retention,
         drawdowns and programmatic performance;
      b. Stronger scrutiny for continuation awards that involve repayments of
         excessive drawdowns for prior periods, including: requiring approval by

                                        22
             senior management where the debt is substantial in amount; written
             agreement with the grantee of a schedule for repayment; and more
             intense financial and programmatic monitoring to protect against further
             overpayments, ensure return of funds and promote achievement of
             program objectives.

   6. Ensure effective communication between Program Officers and Grant Officers
      concerning enrollment and retention shortfalls, to permit grant adjustments,
      modifications or special conditions to mitigate developing risks and promote
      successful outcomes.

   7. Formalize policies and procedures for the administration of fixed amount grants,
      communicate them to the affected parties, reassess them periodically and
      enforce them.


OBJECTIVES, SCOPE AND METHODOLOGY

We conducted this evaluation in accordance with the Quality Standards for Inspection
and Evaluation issued by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE).

The objectives were to: (1) determine if the Corporation has identified and implemented
adequate internal controls to prevent, detect, and mitigate fixed amount grant funds; (2)
evaluate the existence and availability of fixed amount grant policies and procedures to
protect Federal funds against waste, fraud, and inefficiency; and (3) assess the
accountability process in place to evaluate and measure the performance of fixed
amount grant programs.

We conducted our evaluation between May 21, 2013 and August 27, 2013. The
evaluation focused on non-Education Award Program (EAP) fixed amount grants issued
by the Corporation from Fiscal Year (FY) 2010 to May 2013. We reviewed fixed amount
grants in the AmeriCorps and Senior Corps programs.

We judgmentally selected a total of ten fixed amount grants (eight AmeriCorps and two
Senior Corps grants) for review. Fifty percent of the sampled AmeriCorps grantees
were State Commissions. We intentionally selected grantees with higher drawdown
rates.

The table and charts on the following pages show the dollar breakdown of the total
population and our sample.



                                           23
                                     Total Population of Non-EAP Fixed Amount Grants
                                                                          % of        % of 
          Program              Funds Obligated      Funds Disbursed      Funds        Funds 
                                                                        Obligated  Disbursed 
AmeriCorps (64 grantees)       $         158,735,133            $        110,941,590      89%          88% 
Senior Corps (54grantees)      $           20,571,611           $          14,883,005     11%          12% 
Fixed‐Amount Grants (118 
                               $         179,306,744            $        125,824,595                      
grantees) 



                                                   OIG Sample versus Program Population
                                                                                         % of          % of 
          Program               Funds Obligated             Funds Disbursed             Funds         Funds 
                                                                                       Obligated    Disbursed 
AmeriCorps (8 grantees)        $           32,475,227       $          25,760,568        20%           23% 
Senior Corps (2 grantees)      $                 688,043    $                536,717      3%           4% 
Total Sample (10 grantees)     $           33,163,270       $          26,297,285        18%           21% 




                                                          24
 Distribution of AmeriCorps Fixed Amount Grant Awards
                 from FY 2010 to May 2013

                   $100,000 to $499,999
                          (4%)
                                                         $500,000 to $999,999
                                                                (5%)



                                                                $1,000,000 to 
                                                                 $1,999,999
                                                                    (15%)




                                                                $2,000,000 to 
                                                                 $4,999,999
                                                                    (11%)
$10,000,000 and 
     above
     (52%)                                     $5,000,000 to 
                                                $9,999,999
                                                   (13%)




                                          25
                               AmeriCorps Grants Exceeding $10 Million

                Digital Opportunity 
                     Trust USA
                   $10,402,707
                        (13%)

 Habitat for Humanity 
  International, Inc.
     $11,570,306                                                                        Teach For America
         (14%)                                                                             $30,672,094
                                                                                              (37%)




        Notre Dame Mission 
        Volunteers Program,                                                   National Association 
                Inc.                                                          of Community Health 
            $11,816,375                                                           Centers, Inc.
               (14%)                                                              $17,691,000
                                                                                     (22%)




We utilized the My AmeriCorps Portal and eGrants system19 to locate documentation
and data relevant to this evaluation, such as application packages, monitoring reports,
progress reports, grant history reports, member rosters, and grantee risk assessments.



                                                            
19
  eGrants is an interactive web-based tool that allows grantees to apply online and track the status of
their grant from application to close-out.
                                                               26
Our inquiry procedures included meetings with senior AmeriCorps and Senior Corps
leadership responsible for the administration of fixed amount grants. Additionally, we
interviewed program officers and grant officers to gain an understanding of their process
for establishing and monitoring performance measures.

We reviewed the Corporation’s publications, including email guidance, FAQs, NOFAs,
presentations policies and procedures, laws and regulations relating to the operation of
fixed amount grant programs, and a report prepared by the Corporation’s research
department, entitled AmeriCorps State and National Fixed Amount Grants Reduce
Reporting Burden with Limited Negative Consequences, August 8, 2013. We also
researched certain best practices relating to grant management across the Federal
government.

Finally, we conducted entrance (June 6, 2013) and exit (July 25, 2013) conference
meetings with the Corporation’s senior management to keep them fully informed to the
objectives and results of our evaluation. The Corporation’s response to this report is
included as Appendix A, and our response appears as Appendix B.




                                           27
Appendix A


                                                                                NATIONAL&:
                                                                                COMMUNITY
                                                                                                             1201 New York Avenue, NW
                                                                                                             Washington, DC 20525
                                                                                                             202-606-5000
                                                                               SERVICEtDl:                   NationalService.gov



                 To:                 Deborah Jeffrey, Inspector General

                 From:
                       C(J   -r!?6
                             William Basi, Director of AmeriCorps State and National
                             Erwin Tan, Director of Senior Corps
                         ~t-Woc~o Gaudio, Deputy CFO for Grants and Field Financial Management
                           ~{osenberry, Director of Grants Management


                 Cc:                 Valerie Green, General Counsel
                                     Doug Hilton, Director of Accountability and Oversight
                                     Kim Mansaray, Deputy Chief Operating Officer
                                     Robert Velasco II, Chief Operating Officer

                 Date:               September 23, 2013

                 Subject:            Response to OIG Draft Report on the Evaluation of the Corporation's
                                     Fixed Amount Grant Processes


                 Thank you for the opportunity to comment on the OIG draft report of CNCS's fixed
                 amount grant processes. In response, we are providing background to correct factual
                 errors in the report and errors in describing CNCS risk mitigation strategies for fixed
                 amount grants.

                The OIG repnrt states that "In 2009, the Edward M. Kennedy Serve America Act (SAA)
                for the first time authorized the Corporation to award grants in fixed amounts ... " Federal
                agencies do not need specific statutory authority to fund grants under fixed price
                scenarios. CNCS has awarded Promise Fellows and AmeriCorps Education Award fixed
                amount grants since the 1990s. The SAA expanded CNCS authority to fund fixed
                amount grants with appropriations CNCS receives for the AmeriCorps State and National
                grant program without regard to matching requirements. Under the SAA, CNCS can
                award fixed amount grants with AmeriCorps funds without specifying a specific level of
                required matching funds as long as CNCS sets the fixed amount in the grant at an amount
                "that is significantly less than the reasonable and necessary costs of administering the
                program supported by the grant." The law also stipulates that CNCS must require the
                grantee to "return a pro-rata amount of the grant funds based upon the difference between
                the number of hours served by a participant and the minimum number of hours for
                completion ofa teIm of service."

                The OIG report is not correct in stating that CNCS did not evaluate the risks inherent in
                fixed amount grants or mitigate those risks. On page 17 of the report, OIG acknowledges
                risk-based eligibility criteria for the Senior Corps FGP and SCP program. The OIG was
                also aware that CNCS was already funding fixed amount grants prior to passage of the


    DISASTER SERVICES I ECONOMICOPPORTUNITY I EDUCATION I ENVIRONMENTAL STEWARDSHIP I HE ALTHY FUTURES I VETERANS AND MlliTARYFAMILIES

                                     AM ERI COR PS I SE NI OR C ORP S I SOC I AL INN OV ATI ON FUND




                                                                  28
SAA, but chose to limit its review to the AmeriCorps programs funded after the passage
of the SAA. That limited review did not acknowledge that CNCS had identified the
specific risks of fixed amount grants when it first funded the Education Award and later
the Promise Fellows grants -- the same risk factors CNCS confirmed, and the OIG
recommended, during the OIG review. The OIG report also does not adequately
acknowledge that CNCS had established procedures to address the risks and revised them
based on the new authority provided in the SAA. CNCS existing and revised procedures
include:

   •   Procedures to compare member retention records to funds accessed during the life
       of the grant to determine if grantees have accessed more CNCS funds than they
       should have based on member/participant records. The procedures require staff to
       suspend grantee access to drawdowns until they can confirm the grantee is
       deducting excess amounts already drawn from future draws. The DIG reviewed
       those procedures during its review. (Developed in 2010, implemented partially in
       March 20 12, completed in April 2013)
   •   Instructions to applicants to identify their sources of funding for the program
       beyond the amount provided by CNCS. Staff assesses the viability of the
       program based on identified revenue sources as part of the budget and cost
       effectiveness criteria in the application review process. (In place since 1996,
       revised in 2010, and again in 2013)
   •   Procedures to compare member retention records to funds accessed during the
       closeout process to identify any [mal amounts that may have been drawn down in
       excess of overall member retention records. (hnplemented in 1999, automated in
       2007, and revised in August 2013 in preparation for upcoming reviews in October
       20 13 and closeouts beginning in December 20 13)
   •   Guidance to full-time fixed amount grantees through Frequently Asked Questions
       to ensure they understand how fixed amount grants work and help them design
       procedures to access pro-rata portions of the fixed amount as needed based on
       member retention (posted online and sent to fixed amount grantees)

Only one out of 118 of the new grantees drew down more CNCS funds than it should
have and failed to establish adequate controls to ensure it had the additional revenue to
operate the program. That one grantee is not representative of fixed amount grantees.
The DIG review also incorrectly says that only "after the DOT issue arose did CNCS
begin to develop procedures directed at monitoring the risks specific to fixed amount
grants." As explained to the OIG auditor during the review, CNCS began development
ofa process to compare member retention to drawdowns in 2010 in fixed amount grants,
as described above. The specifications for that 2010 process, which require electronic
system upgrades, are with the Office of Information Technology for implementation
when funds are available. In the interim, as noted in the review, the periodic manual
drawdown analysis procedures are now in place and reduce risks associated with future
excess drawdowns.

CNCS continually reviews problems with grantees and grant issues to identify areas in
which CNCS could enhance its policies and procedures. We did so, again, when the




                                           29
DOT issue came to our attention , to further strengthen controls. As noted in the O IG
review, CNCS establish ed stronger financial review procedures for the 2013 grant cycle
to he lp ensure applicants w ill have financial s tability as well as the resources needed to
operate a successful AmeriCorps program. In addition, in the next grant cycle, CNCS
plans to place limits on t he size of a grant we will consider to ensure we do not provide
an organization with funds that far exceed its existing total annual revenue. We also
addcd new requirements to the 20 14 NOPO for fixed amount grant applicants. Beginning
in 2014, no organization can apply for a fixed a mount grant unless it has operated a
s uccessful AmeriCorps program for at least one grant cycle. Program staff also will a lert
their g rants officcr counterparts when they find enrollment and retention problems in
their fixed a mount grant programs as soon as they discover them and grants officers will
compare member records with drawdowns more frequently than annually.

The O IG review also draws conclusions and assumes CNCS intentions that are not based
in fact. O n page 8, the draft report states, "DOT was unable to retain members, many of
w hom quickly left to accept full-time employment as teachers." While DOT had
retention problems, there is no data supporting the assumption that members left for
teaching positions. In addition, the report states that CNCS intended to recover funds by
continuing DOT for a third year . There was never a n y discussion with OIG staff that this
was CNCS's intention, and this assumption is incorrect. In fact, CNCS deducted funds
from the third year of the award based on under perfonnance. Other factual errors in the
report include:

   •   Page 2 alleges that "the fixed amount grant program has placed $240 million at
       financial risk ... " In the appendix on page 23, the total amount awarded is
       $ 179,306,744. The amount of $240 million is overstated if the total awarded is
       only $179,306,744. In addition, indicating that all funds arc at risk is a gross
       overstatement w h en only one out of 118 grantees reviewed failed to fully m eet its
       grant obligations.

   •   Page 2 of the report notes that the Senior Corps fixed amount is $4,600. The
       fixed amount for the Foster Grandparent program is $4,600. The Senior
       Companion amount is $4,550.

   •   Page 10 of the report states one grantee, Habitat for Humanity, made excessive
       drawdowns during at least one year of its grant in the amount of$92,947. The
       drawdown analysis CNCS conducted does not support this finding. In fact, our
       a na lysis indicated that at the time ofCNCS's staff review, the grantee could have
       drawn up to $150,000 more than it had. However, we do not know what
       procedures D IG staff used to conduct their drawdown analysis. CNCS will need
       the working papers to review OIG's methodology to resolve this discrepancy.

Finally, the draft report recommends that CNCS seek to recover interest on advanced
amounts, citing OMB Circular 110 and 45 C.F.R. §2543.21, Standards for financial
management .\ystems. There is nothing in 45 C.F.R. §2543.2 1 about recovering interest
on overpaid amounts a nd the scction cited in OMB Circular 110 requires recipients to




                                            30
maintain advances ofFederaI funds in interest bearing accounts in specific instances. We
are unaware of any authority for CNCS to charge grantees interest on funds drawn down
for costs incurred in fixed amount grants.

In summary, CNCS has controls in place that are not acknowledged in this report, yet
nonetheless agrees that it is appropriate to consider additional controls. CNCS is
carefully evaluating what additional preventive or detective controls, or other risk
mitigation techniques, would be most effective and cost-efficient.




                                          31
Appendix B

Auditor’s Comments on the Corporation’s Response

Successful management of fixed amount grants requires a sound risk-based framework,
implemented through standards, rules and procedures. The measures adopted by the
Corporation begin to address some of these risks. However, the necessary safeguards
are far from complete, and funds remain vulnerable.

The Corporation’s response does not acknowledge the unacceptable risk that arises
from a grantee’s ability to access the full amount of a fixed grant at will, without regard
to whether it retains the expected number of volunteers. The response likewise does
not address our recommendation to do what other grant-making agencies have done—
establish drawdowns caps administered through the HHS Payment Management
System, a low-cost and automated preventive control. Even with the recently
implemented procedures, the Corporation continues to rely on voluntary compliance by
grantees, leaving the taxpayers with the risks and burdens of chasing overpayments
that result from non-compliance. The $1 million overdrawn by the now-bankrupt DOT,
which the Corporation is unlikely to recover, sharply illustrates the vulnerability of the
system to mismanagement and abuse, and the Corporation has not done enough to
close the gaps that allowed it. We do not share the inordinate comfort that the
Corporation draws from its otherwise good fortune to date and hope that it does not
indicate complacency.

Instead of grappling directly with the lack of a risk-based coherent framework for fixed
amount grants or squarely addressing our specific recommendations, the Corporation’s
response challenges the scope of our audit based on irrelevant information and dwells
on minutiae. Our response to these points individually should not detract from the basic
findings in our evaluation—given the size and vulnerability of the fixed grant portfolio,
better risk-based controls are essential.

Contrary to the Corporation’s suggestion, the Education Award Program (EAP) is
irrelevant, because those grants differ in material respects from the fixed amount grants
newly authorized by the Serve America Act. An EAP grant provides no more than $800
per full-time member, with all remaining program operating costs paid by the grantee.
Unlike the fixed amount grants on which our work focused, EAP grants defray only the
initial costs of recruiting and training volunteers. The funds are thus earned in full upon
member enrollment and are unaffected by subsequent attrition. The limited risks
associated with EAP grants differ in magnitude, duration and kind from the ones
addressed in our evaluation. Moreover, the Corporation has known the scope of our
work since May 2013 yet never suggested that EAP grants be considered in any way
relevant, and the Corporation’s own research report on fixed amount grants,
AmeriCorps State and National Fixed Amount Grants Reduce Reporting Burden with
Limited Negative Consequences, August 8, 2013, likewise excluded EAP grants from
consideration.


                                            32
The response also asserts that the Corporation years ago developed procedures to
address the risks associated with fixed amount grants. It cites as one example the
comparison of drawdowns vs. member retention, which it states was developed in 2010.
As the Corporation admits, however, that analysis was not performed until April 2013,
after DOT acknowledged its financial difficulties. Unimplemented processes and
procedures, no matter how well designed, are ineffective. And while OIG agrees that
such analyses should be automated, the failure to act for three years while awaiting
additional funding for the Office of Information Technology left the Corporation and the
taxpayers at risk unnecessarily. The manual drawdown analysis performed in 2013
demonstrates that IT support, however desirable, was not essential.

The Corporation cites among its established procedures the instruction that applicants
for fixed amount grants identify the non-CNCS funding to be devoted to the program.
Our report noted this procedure, but questioned its effectiveness. Thirty percent of the
fixed amount grant applications that we reviewed omitted this information and were
nevertheless funded.

No speculation was involved in OIG’s observation that the Corporation intended to
recover the excessive drawdowns from DOT by funding the grant for a third year. The
facts speak for themselves. The Corporation continued the grant at a reduced level
($3.1 million instead of $3.6 million, a 14 percent reduction), without reducing the
number of member slots, and expected DOT to absorb the difference in costs. Under
this unreasonably optimistic scenario, DOT would fund in year 3 the majority of the
unfilled slots for which it was paid in years 1 and 2. The Corporation at that time took
no other actions to recover the past excessive drawdowns, and it now offers no other
explanation for doubling down on DOT.

The Corporation also quibbles with certain statements in the report that are in fact
accurate:

        The response asserts that “the OIG report is not correct in stating that CNCS
         did not evaluate the risks inherent in fixed amount grants or mitigate those
         risks.” OIG expressly requested any assessments of the risks associated with
         the fixed amount grant program. The Corporation was unable to provide any
         evidence of a risk assessment at the program level. The Director of
         Accountability and Oversight attributed the failure to urgency about using the
         new authority created by the Serve America Act. Had a formal risk
         assessment taken place, we believe that the Corporation would have instituted
         better safeguards.

        The Corporation questioned the basis for our statement that many of DOT’s
         members left to accept teaching positions in the schools in which they were
         volunteering. The information comes from the Corporation’s own records,
         specifically the “DOT Grantee Progress Report for Period 10/1/2011-9/30/2012
         Response to Compliance Issues,” which offered the following explanation for


                                           33
         its retention problems: “[M]any times it is the school districts where the
         members are placed that offer the member full time employment.”

        The Corporation contends that OIG overstated the total of fixed amount
         awards as $240 million, when the appendix shows a total of $179,306,744.
         The report states explicitly that the second figure represents the fixed amount
         grants awarded from FY 2010 through May 2013, while the first figure also
         includes the new fixed amount grants of $65,417,088 awarded in June 2013.
         Report at 5. We stand by our conclusion that the lack of safeguards places
         these funds in jeopardy.

OIG correctly determined that Habitat for Humanity International overdrew its
enrollment-based entitlement in the second year of its grant. Fortunately, much of the
excess was offset by having underdrawn the grant in the previous year. The OIG
analysis was based on the annual data available at the time of our evaluation. We
shared our methodology and results with the Director of the Office of Grants
Management (OGM), who expressed no objection. We were advised that OGM’s
earlier analysis was based on the (then-available) cumulative data, rather than year-by-
year.

OIG hopes that the Corporation will recognize the risks presented by the lack of controls
for fixed amount grants, carefully review our specific recommendations and develop
appropriate mitigation measures. We hope that future programs will receive more
disciplined and rigorous risk analysis and more comprehensive risk management.




                                           34
